                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A08080042                                                          11          Page 1 of 1



                   Our office received a hotline web submission from an employee1 informing us that his
          institution utilized prior IACUC approvals for subsequent proposals when the two proposals
          used the same animal testing methodologies. While this practice is acceptable in some
          circumstances, institutions must use valid IACUC approvals and trace every protocol and
          subsequent proposal separately. The institution provided us documentation explaining its current
          policy regarding IACUC review and approval, and supplied examples of its tracking and review
          methods for approved protocols. The institution follows standard practices and its policies are in
          order. No further action is needed on this matter.


                    Accordingly, this case is closed.




NSF 01G Form 2 ( l1102)
